  DEPARTMENT OF HOMELAND SECURITY

           Office of Inspector General

       Information Technology Management
       Letter for the FY 2005 Customs and
       Border Protection Balance Sheet Audit
                       (Redacted)




 Notice: The Department of Homeland Security, Office of Inspector General, has redacted
 this report for public release. The redactions are identified as (b)(2), comparable to 5
 U.S.C. § 552 (b)(2). A review under the Freedom of Information Act will be conducted upon
 request.




            Office of Information Technology

OIG-06-41                                                                    June 2006
                        KPMG LLP
                        2001 M Street, NW
                        Washington, DC 20036


December 2, 2005

Inspector General
U.S. Department of Homeland Security

Commissioner
Bureau of Customs and Border Protection

Chief Information Officer
Bureau of Customs and Border Protection

We have audited the consolidated balance sheet of the U.S. Department of Homeland Security’s
Bureau of Customs and Border Protection (CBP) as of September 30, 2005. In planning and
performing our audit of CBP’s consolidated balance sheet, we considered CBP’s internal control
over financial reporting in order to determine our auditing procedures for the purpose of
expressing our opinion on the consolidated balance sheet. Audit procedures may not include
examining the effectiveness of internal controls and an audit does not provide assurance on
internal control. We have not considered internal control since the date of our report.

During our audit, we noted certain matters involving internal control and other operational
matters with respect to information technology that are summarized in the Information
Technology Management Letter starting on page 1. These comments and recommendations, all
of which have been discussed with the appropriate members of management, are intended to
improve internal control or result in other operating efficiencies. These comments are in addition
to the reportable conditions presented in our Independent Auditors’ Report, dated November 2,
2005, and represent the separate restricted distribution report mentioned in that report. A
description of each Notice of Findings and Recommendations is provided in Appendix B. We
have also included the current status of each prior year Notice of Findings and Recommendations
in Appendix C. Our comments related to financial management that are in addition to the
reportable conditions presented in our Independent Auditors’ Report will be reported in the DHS
consolidated management letter.

Our audit procedures were designed primarily to enable us to form an opinion on the consolidated
balance sheet and therefore may not bring to light all weaknesses in policies and procedures that
may exist. We aim, however, to use our knowledge of CBP’s organization gained during our
work to make comments and suggestions that we hope will be useful to you.

We would be pleased to discuss these comments and recommendations with you at any time.

This report is intended for the information and use of DHS and CBP management, the DHS
Office of Inspector General, the U.S. Office of Management and Budget, the U.S. Congress, and
the Government Accountability Office, and is not intended to be and should not be used by
anyone other than these specified parties.

Very truly yours,


   Information Technology Management Letter for the FY 2005 Customs and Border Protection
                                Financial Statement Audit

                                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                a member of KPMG International, a Swiss association.
           Department of Homeland Security - Customs and Border Protection
                       Information Technology Management Letter
                                  September 30, 2005




Robert Todero
Partner
           Department of Homeland Security - Customs and Border Protection
                       Information Technology Management Letter
                                  September 30, 2005



              INFORMATION TECHNOLOGY MANAGEMENT LETTER

                                  TABLE OF CONTENTS


                                                                                           Page

Information Technology Objective, Scope and Approach                                        1

Summary of Findings and Recommendations                                                     2

Findings by Audit Area                                                                      2

       Entity-Wide Security Program Planning and Management                                 2

       Access Controls                                                                      3

       Segregation of Duties                                                                5

       Service Continuity                                                                   6

       Application Software Development and Change Controls                                 6

       Management Comments and OIG Evaluation                                               7


                                       APPENDICES


   Appendix                                     Subject                                    Page

                 Description of Financial Systems and IT Infrastructure within the Scope
      A                                                                                     8
                 of the FY 2005 CBP Balance Sheet Audit

       B         FY 2005 CBP Notices of Findings and Recommendations – IT Detail            10

      C          Status of Prior Year Notices of Findings and Recommendations and
                                                                                            18
                 Comparison to Current Year Notice of Findings and Recommendations

      D          Management Response to Draft CBP IT Management Letter                      21
             Department of Homeland Security - Customs and Border Protection
                         Information Technology Management Letter
                                    September 30, 2005

                   INFORMATION TECHNOLOGY
                 OBJECTIVE, SCOPE AND APPROACH
 KPMG performed a review of CBP’s IT general controls in support of the FY 2005 CBP consolidated
 balance sheet audit. The overall objective of our review was to evaluate the effectiveness of IT
 general controls of CBP’s financial processing environment and related IT infrastructure as necessary
 to support the audit. The Federal Information System Controls Audit Manual (FISCAM), issued by
 the Government Accountability Office (GAO), formed the basis of our review and was supplemented
 by the National Institute of Standards and Technology (NIST) Special Publication 800-53 and
 applicable CBP and DHS policies. The scope of the IT general controls assessment included testing
 at CBP’s Office of Finance and Office of Information Technology.

 FISCAM is designed to inform financial auditors about IT controls and related audit concerns to
 assist them in planning their audit work and to integrate the work of auditors with other aspects of the
 financial audit. FISCAM also provides guidance to IT auditors when considering the scope and
 extent of review that generally should be performed when evaluating general controls and the IT
 environment of a federal agency. FISCAM defines the following six control functions to be essential
 to the effective operation of the general IT controls environment.

     •   Entity-wide security program planning and management (EWS) – Controls that provide a
         framework and continuing cycle of activity for managing risk, developing security policies,
         assigning responsibilities, and monitoring the adequacy of computer-related security controls.
     •   Access control (AC) – Controls that limit and/or monitor access to computer resources (data,
         programs, equipment, and facilities) to protect against unauthorized modification, loss, and
         disclosure.
     •   System software (SS) – Controls that limit and monitor access to powerful programs that
         operate computer hardware.
     •   Segregation of duties (SD) – Controls that constitute policies, procedures, and an
         organizational structure to prevent one individual from controlling key aspects of computer-
         related operations, thus deterring unauthorized actions or access to assets or records.
     •   Service continuity (SC) – Controls that involve procedures for continuing critical operations
         without interruption, or with prompt resumption, when unexpected events occur.
     •   Application software development and change control (ASDCC) – Controls that help to
         prevent the implementation of unauthorized programs or modifications to existing programs.

 To complement our general IT controls review, we also performed technical security testing for key
 network and system devices, as well as testing over key financial application controls. The technical
 security testing was performed from within CBP, and was focused on test, development, and
 production devices that directly support CBP financial processing and key general support systems.
 We also tested application controls, which are the structure, policies, and procedures that apply to
 separate, individual application systems, such as accounts payable, inventory, payroll, grants, or
 loans. The application control testing was performed to assess the controls that support the financial
 system’s internal controls over the input, processing, and output of financial data and transactions.




                                                  1
Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                       Statement Audit
              Department of Homeland Security - Customs and Border Protection
                          Information Technology Management Letter
                                     September 30, 2005

    SUMMARY OF FINDINGS AND RECOMMENDATIONS
  During FY 2005, CBP took corrective action to address prior year IT control weaknesses. However,
  during FY 2005, we continued to find IT general control weaknesses at CBP. The most significant
  weaknesses from a balance sheet audit perspective related to entity-wide security and access controls.
  Collectively, the IT control weaknesses limited CBP’s ability to ensure that critical financial and
  operational data was maintained in such a manner to ensure confidentiality, integrity, and availability.
  In addition, these weaknesses negatively impacted the internal controls over CBP financial reporting
  and its operation, and we consider them to collectively represent a material weakness under standards
  established by the AICPA. The information technology findings were consolidated into one material
  weakness regarding Financial Systems Functionality and Technology for the FY 2005 audit of the
  CBP consolidated balance sheet.

  Although we noted improvement, many of the conditions identified at CBP in FY 2004 during our
  engagement to audit DHS’ consolidated financial statements have not been corrected because CBP
  still faces challenges related to the merging of numerous IT functions, controls, processes, and overall
  organizational shortages. During FY 2005, CBP took steps to help address these conditions, such as
  implementing increased controls over access to sensitive applications functions, improving its IT
  security program by implementing CBP-wide security training and implementing a new financial
  management system replacing the legacy mainframe system.

  Despite these improvements, CBP needs further emphasis on the monitoring and enforcement of the
  policies and procedures through the performance of periodic security control assessments and audits.
  Further improvements are needed in implementing and enforcing the CBP-wide security certification
  and accreditation (C&A) program, and technical security control training for system administrators
  and security officers. Many of the technical issues identified during our review, which were also
  identified during FY 2004, such as weak system access controls and inconsistent contingency
  planning, can be addressed through a more effective security C&A program and security training
  program.

FINDINGS BY AUDIT AREA

  Entity-Wide Security Program Planning and Management

  During FY 2005, CBP improved its level of entity-wide security program planning and management.
  However, continued efforts are needed, especially in the areas of program management related to the
  detection and monitoring of technical information security weaknesses. Collectively, the identified
  entity-wide security planning and management issues, coupled with the access control issues
  described later in this management letter, reduce the overall effectiveness of the entity-wide security
  programs for CBP.

  Conditions noted regarding entity-wide security program planning and management at CBP were:

      •   Security risk assessments were not performed regularly and consistently;

      •   CBP has not made efforts to evaluate the need for a separate C&A for the applications
          remaining in the seven business process areas defined in the Administrative Applications
          C&A;

                                                   2
 Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                        Statement Audit
              Department of Homeland Security - Customs and Border Protection
                          Information Technology Management Letter
                                     September 30, 2005


     •   Initial security awareness training for CBP employees and contractors was not completed;
         and

     •   Improvements are still needed in CBP’s Incident Handling and Response Capability.
         Specifically, issues still exist related to incident prevention, response, recovery, and
         reporting. ---------------- ------------------------------ ---- ---------------- ---------- ---- ---------- ---
         ------------------------------------------------ ---------------------------- --------------------------------
         -------------- ----------------- - ------- - ---------------- There is a process in place for tracking
         incidents. However, process is not consistent and/or complete. Incidents were not included
         on requested weekly reports and incident documentation was missing.

 Recommendations:

 Entity-wide security program planning and management controls should be in place to establish a
 framework and continuing cycle of activity to manage security risk, develop security policies, assign
 responsibilities, and monitor the adequacy of computer security related controls. We recommend that
 the CBP Chief Information Officer (CIO), in coordination with the Chief Financial Officer (CFO),
 other CBP functional leaders, and the DHS CIO continue efforts to fully implement a security
 program to ensure that:

     •   Security risk assessments are regularly completed in a consistent manner per Office of
         Management and Budget (OMB) and NIST guidance;

     •   Information security planning efforts more consistently follow Federal guidance (OMB and
         NIST) specifically regarding the implementation and enforcement of the C&A program and
         with respect to the applications remaining in the seven business process areas defined in the
         Administrative Application C&A;

     •   Management consistently applies the requirements for initial security awareness training for
         all employees and contractors upon initially establishing LAN/mainframe accounts to CBP
         information systems; and

     •   Continue to test and implement a standard real-time automated reporting process whereby
         information can be generated on all incidents, response, and recovery activities on a regular
         basis for servers and workstations. Additionally, management should develop a consistent
         process to respond to system flaw notifications and track reported security incidents.

 Access Controls

 During FY 2005 we noted significant access control vulnerabilities with -----------------------------
 -------------------------------- These are significant issues because personnel inside the organization
 who best understand the organization’s systems, applications, and business processes were able to
 make unauthorized access to some systems and applications. Some of the identified vulnerable
 devices were used for test and development purposes. In some cases, users were able to access ----
 ------------------------------ with group passwords, system default passwords, or the same passwords
 with which they logged into ------------- ---------. As a result, hackers could target----------



                                                         3
Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                       Statement Audit
               Department of Homeland Security - Customs and Border Protection
                           Information Technology Management Letter
                                      September 30, 2005

 ----------- ---- --------- to obtain information (e.g., - -------------------------) to attempt further access into
 CBP’s IT environment.

 Conditions noted regarding access controls at CBP were:

     •    Instances where non-supervisory users had excessive access to sensitive and high-risk
          -------------------------------------- ---------------------

     •    Instances within ----- where certain controls could be overridden without supervisory
          approval;

     •    Instances where policies and procedures for restricting and monitoring access to CBP’s -----
          ------------- - - - ------ ----- ----- were not implemented or were inadequate, the ability to
          monitor security logs did not exist, and separated employees had active accounts in ----- ;

     •    Instances of missing user passwords ----------------------------------- weak user passwords, and
          weaknesses in user account management. We also noted several cases where user accounts
          were not periodically reviewed for appropriateness, including authorizations to use group
          user accounts and excessive account privileges;

     •    Instances where legacy point-to-point frame relay connections existed without formal
          interconnection service agreements (ISA);

     •    No formal process exited to confirm or enforce compliance with the ----- re-certification
          process at the field sites;

     •    Physical access to the -------------------- ---- --------- was not adequately implemented or
          enforced; and

     •    Inconsistent authorization and recertification process for virtual private network (VPN) users.

 Recommendations:

 In close concert with an organization’s entity-wide information security program, access controls for
 general support systems and applications should provide reasonable assurance that computer
 resources such as data files, application programs, and computer-related facilities and equipment are
 protected against unauthorized modification, disclosure, loss, or impairment. Access controls are
 facilitated by an organization’s entity-wide security program. Such controls include physical
 controls, such as keeping computers in locked rooms to limit physical access, and logical controls,
 such as security software programs designed to prevent or detect unauthorized access to sensitive
 files. Inadequate access controls diminish the reliability of computerized data and increase the risk of
 destruction or inappropriate disclosure of information.

 We recommend that the CBP CIO, in coordination with the CFO and other CBP functional leaders:

     •   Ensure that the assignment of sensitive functions and high-risk combinations of functions to
         non-supervisory users is based on a documented business need and approved by a supervisory



                                                       4
Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                       Statement Audit
             Department of Homeland Security - Customs and Border Protection
                         Information Technology Management Letter
                                    September 30, 2005

        official. Exceptions from the guidance provided in the memorandum should be formally
        approved and documented.

    •   Develop a process to mitigate the systemic ----- weakness where certain controls can be
        overridden without supervisory approval.

    •   Implement and enforce a password account management process to ensure the periodic
        review of user accounts. Develop a formal centralized process for tracking the termination of
        employee and contract personnel and coordinate the deactivation of all systems access of
        terminated employees and contractors immediately upon separation from CBP. Design and
        implement an entity-wide security configuration process to enforce the guideline of least
        privilege system access and the monitoring of security logs ----------

    •   Implement a formal vulnerability assessment process whereby systems are periodically
        reviewed for security weaknesses and ensure that password controls meet DHS and CBP
        password requirements on all systems;

    •   Complete efforts to identify all connections with the ------ and formally establish ISAs with
        these entities;

    •   Formalize the process to confirm or enforce compliance with the ------------ ----- ---------------
        ------------------ and formally document the verification of -------------------------------------

    •   Perform a formal review of all personnel that have access to ---- ---------------- determine those
        that do not have a formal user access form in place. Confirm that current personnel with -----
        ----------------- actually need this access to perform their job functions and remove those who
        do not. Additionally, establish a formal authorized user access form for each person
        identified; and

    •   Continue to use the official authorization form for new VPN users, formally re-certify all
        VPN employee accounts on a periodic basis and document results.

 Segregation of Duties

 During FY 2005, we continued to note instances where an individual controlled more than one critical
 function within a process, increasing the risk that erroneous or fraudulent transactions could be
 processed, improper program changes could be implemented, and computer resources could be
 damaged or destroyed, without detection. Additionally, we noted a lack of segregation of duties
 among major operating and programming activities, including duties performed by users, application
 programmers, and data center staff.

 Conditions noted regarding segregation of duties at CBP were:

    •   Instances where individuals were able to perform incompatible functions, such as the
        changing, testing, and implementation of software, without sufficient compensating controls
        in place; and




                                                  5
Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                       Statement Audit
             Department of Homeland Security - Customs and Border Protection
                         Information Technology Management Letter
                                    September 30, 2005

    •    Instances where key security positions were not defined or assigned, and descriptions of
         positions were not documented or updated.

 Recommendations:

 We recommend that the CBP CIO, in coordination with the CFO and other CBP functional leaders,
 ensure that:

    •    Responsibilities are documented so that incompatible duties are consistently separated. If this
         is not feasible given the smaller size of certain functions, then sufficient compensating
         controls, such as periodic peer reviews, should be implemented; and

    •    Policies and procedures are developed and documented to assign key security positions and
         maintain current position descriptions.

 Service Continuity

 During FY 2005 we noted that CBP took some corrective actions to address IT control issues related
 to the back-up and protection of critical system data. Despite these improvements, a weakness related
 to disaster recovery plans and business continuity plans continued to exist. Service continuity is
 important because losing the capability to process, retrieve, and protect information maintained
 electronically can significantly affect an agency’s ability to accomplish its mission.

 The condition noted regarding service continuity at CBP was:

     •   An incomplete and outdated alternate processing site agreement regarding specifics related to
         the identified equipment and priority service requirements.

 Recommendation:

 We recommend that the CBP CIO, in coordination with the CFO and other CBP functional leaders:

    •    Formally update the alternate processing site agreement to accurately reflect the current
         hardware and support that will be required of the alternate processing site vendor in the event
         of an emergency.

 Application Software Development and Change Control

 During FY 2005 we noted that CBP took corrective actions to address IT control issues related to
 application software changes. However, we noted that in some cases the application software change
 control documentation was still not consistent with CBP guidance.

 Conditions noted regarding configuration management and change control at CBP were:

     •   Instances where ----- application developers were found with access to the production
         environment;




                                                 6
Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                       Statement Audit
                 Department of Homeland Security - Customs and Border Protection
                             Information Technology Management Letter
                                        September 30, 2005

        •   Instances where ----- codes were not configured to the “Productive” setting, allowing users
            with "mass deletion/change" access to transactional data; and

        •   Instances where changes to-------were not always documented.

    Recommendations:

    We recommend that the CBP CIO, in coordination with the CFO and other CBP functional leaders:

       •    Develop and employ a formally documented process for granting ------------- normal and
            emergency access to the production environment;

       •    Perform a formal analysis of the new ----- system’s configurations to determine the
            appropriate settings to prevent users from accidentally or purposely deleting or altering
            transactional data. Based on this analysis, the system should be configured accordingly; and

       •    Formally document test plans, test cases, and test results for all ----- changes and formally
            document business and customer impact analyses for ----- change requests.



MANAGEMENT COMMENTS AND OIG EVALUATION

We obtained written comments on a draft of this report from the CBP CIO. Generally, the CBP CIO
agreed with all of the report’s findings and recommendations. We have incorporated the comments
where appropriate and included a copy of the comments in their entirety at Appendix D.

In his response, the CBP CIO stated that CBP is:

        •   Taking steps to ensure that entity-wide security program planning and management
            controls are in place to establish a framework and continuing cycle of activity to manage
            security risk;
        •   Working to ensure that the assignment of sensitive functions is legitimate, that the
            weaknesses that can lead to a control override in certain systems is mitigated, and that
            physical and electronic access to sensitive CBP systems is secured and carefully monitored;
        •   Continuing to develop applicable policies and procedures to ensure that certain duties are
            separated, as necessary and to monitor user roles and new user or access requests to prevent
            future segregation of duty conflicts;
        •   Working to ensure that the --------------- - ----------------- Continuity of Operations Plan
            (COOP) is as current as possible, and that the alternate processing site has the hardware and
            support necessary to continue operations in the event of an emergency; and
        •   Ensuring that proper separation of roles between the development and production
            environments are established.


OIG Response

We agree with the steps that CBP is taking to satisfy these recommendations.

                                                     7
  Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                         Statement Audit
                                                                                     Appendix A

                   United States Bureau of Customs and Border Protection
                          Information Technology Management Letter
                                     September 30, 2005




                                       Appendix A

Description of Financial Systems and IT Infrastructure within the
         Scope of the FY 2005 CBP Balance Sheet Audit




                                               8
Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                       Statement Audit
                                                                                                     Appendix A

                      United States Bureau of Customs and Border Protection
                             Information Technology Management Letter
                                        September 30, 2005


  Below is a description of significant CBP financial management systems and supporting IT
  infrastructure included in the scope of the September 30, 2005 CBP consolidated balance sheet
  audit.

  Locations of Review: ---------------------------------------------------------------------- ------------------
  --------------------------------------------------------------- .

  Systems Subject to Review:

  •   ------------------------------- ---------------- ---------- --------was decommissioned in FY 2005 and
      replaced by ----- . It was CBP's IBM --- ----- -- - -based financial management system that
      supported primary financial accounting and reporting processes, and a number of additional
      subsystems for specific operational and administrative management functions. The core system
      consisted of general ledger, accounts receivable, disbursements/payables, purchasing, and
      budget execution modules. ------- was hosted on a customized version of-------------
      ------------- ----------- - ------------- ------------------------ ----- --------

  •   ---------- – ----- is a client/server-based financial management system that was implemented
      beginning in FY 2004 to ultimately replace the ------- -------------------------------- --- ----- ------ -
      using a phased approach. The---------------------------- -- - ----- ------ was implemented and
      utilized in FY 2004. Other --------------- were implemented in FY 2005.

  •   --------------- - ---------------------------- -------- is a collection of mainframe-based applications
      used to track, control, and process all commercial goods, conveyances and private aircraft
      entering the United States territory, for the purpose of collecting import duties, fees, and taxes
      owed the Federal government.

  •   ---------------- ------------------------------------------------ – Used for tracking seized assets,
      Customs Forfeiture Fund, and fines & penalties.




                                                       9
Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                       Statement Audit
                                                                                     Appendix B

             Department of Homeland Security - Customs and Border Protection
                         Information Technology Management Letter
                                    September 30, 2005




                                       Appendix B

                            FY 2005 CBP
        Notices of Findings and Recommendations – IT Detail




                                              10
Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                       Statement Audit
                                                                                                               Appendix B

                 Department of Homeland Security - Customs and Border Protection
                             Information Technology Management Letter
                                        September 30, 2005

               FY 2005 CBP Notices of Findings and Recommendations – IT Detail


   NFR #                            Condition                                               Recommendation
                                                                          Coordinate with each field office that has a
                                                                          segregation of duties conflict to either (1) correct
                                                                          the problem by removing the conflicting roles, or
               A number of - --- IDs had a segregation of
CBP-IT-05-01                                                              (2) sign a waiver to accept responsibility for issues
               duties conflict.
                                                                          arising from the segregation of duties conflict.
                                                                          Continue to prevent new IDs with a segregation of
                                                                          duties conflict from being created.
                                                                          Remove unnecessary privileges and/or accounts
                                                                          given the exceptions we noted related to the
                                                                          authorities/functions granted to certain ------
               Three ------------------------ --------------- --- -----   ----------- Accesses granted should be based on the
               ----------------------------------- - --- - -----          least privilege concept to the minimum number of
               --- ---- - --- ---- - ) to specify security modes for      personnel with a defined and documented need.
               individual users without a justified business
               need.                                                      As an alternate means of providing availability to
                                                                          functions not used on a regular basis, continue
CBP-IT-05-02
               Two----------------------- ----with ---------- ------      implementation of a --------------- -- ------------------
               had full security administration privileges,               ---- -------- for use by authorized individuals during
               which violated separation of duties principles.            pre-determined circumstances. Establishment of a
                                                                          ‘------------------ would enable the removal of
               One ----- account had not been utilized since              privileges from individuals who do not regularly
               August 6, 2004.                                            require such access. ---------- -------- are controlled
                                                                          through the use of a hardcopy log, secure storage of
                                                                          passwords, auditing of all --------- --------activities
                                                                          and suspension after each use.
               After the re-organization of the Office of
               Information Technology (OIT), security
               administration functions at the-- ---- including           Ensure that security administration functions
               mainframe security, network security, and                  remain independent of operations. In order to
CBP-IT-05-03   incident response, were not independent of the             maintain independence, the security administration
               operations function. Rather, the Security                  function should not report to operations
               Operations Center reported to Technology                   management.
               Operations, which was not an independent
               security function.
                                                                          Develop a process to mitigate the systemic ------
                                                                          weakness that certain controls can be overridden
               Due to the design of ------ certain controls
                                                                          without supervisory approval. Considering the
               could be overridden without supervisory
                                                                          number of years necessary to fully replace ------
               approval. Management plans to implement
                                                                          functionality with ------- this process should be
               functionality in the --- - --- --- -- - ------------
CBP-IT-05-04                                                              designed in a manner to ensure supervisory review
               ---- ---- ---- ---------- to prevent the override
                                                                          of ------ overrides while maintaining a minimal
               capability. KPMG noted that although ------
                                                                          burden on management. CBP should ensure that
               will eventually replace ------- ------ will not be
                                                                          the new ------ system has the appropriate
               implemented in FY 2005.
                                                                          requirements for such controls and that these
                                                                          controls are applied prior to implementation.
CBP-IT-05-05   Formal procedures for granting access to                   Formally establish a process for granting -----

                                                              11
    Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                           Statement Audit
                                                                                                           Appendix B

                 Department of Homeland Security - Customs and Border Protection
                             Information Technology Management Letter
                                        September 30, 2005

   NFR #                           Condition                                          Recommendation
               sensitive ------technical team member roles        access to sensitive technical team roles (e.g. basis
               have not been developed.                           and security team members) and consistently apply
                                                                  these processes. The procedures should include
                                                                  requirements for documenting the authorization
                                                                  request and include the exact roles that should be
                                                                  granted. Additionally, the procedures should
                                                                  require a periodic documented recertification of the
                                                                  user roles within-------
               The ---------contingency plan has not been
               updated with the results of the FY 2004
               continuity of operations plan (COOP) tests.
               Additionally, the COOP has not undergone the
                                                                  Update the -------- COOP with the most recent test
               annual re-evaluation as required. Also,
                                                                  results. Additionally, re-evaluate the COOP for
               implementation of the new financial
CBP-IT-05-06                                                      overall contingency planning procedures on an
               management system changed the mainframe
                                                                  annual basis, especially in the event of a major
               environment to a client-server based -----
                                                                  system change or upgrade, such as --- --
               environment. However, the plan has not been
               updated and, therefore, might contain outdated
               and improper contingency procedures for
               information systems and data.
                                                                  Consistently apply the requirements for initial
               The requirement for initial security awareness
                                                                  security awareness training for all employees and
CBP-IT-05-08   training for employees and contractors was not
                                                                  contractors upon initially establishing
               consistently applied.
                                                                  LAN/mainframe accounts to information systems.
                                                                  Coordinate with DHS in developing enterprise-
                                                                  wide solutions for improving network and host-
                                                                  based system configuration design(s) to reduce the
                                                                  risks of compromise.

                                                                  Consider use of system administrator level security
                                                                  management monitoring tools to detect and correct
                                                                  security deficiencies in preventing possible
                                                                  intrusions. Use of such tools should include a
                                                                  planned “prioritized” schedule for checking all
                                                                  servers.
               Improvements were still needed in security
               controls affecting ----- ---- - -- ---- --------
CBP-IT-05-09                                                      Proceed with the implementation of -- -------
               management and staff’s system access to
                                                                  -------------------- ----------- ------- ------------
               applications and data.
                                                                  ----- ---------- - ---- - ---

                                                                  Provide and approve more robust standards for
                                                                  -- - - - --- --- -- ---- - ----- - --- - --- -- for a standard
                                                                  and sustainable baseline set of system management
                                                                  security controls.

                                                                  Consider development of a compliance-level policy
                                                                  that provides for adherence to agency password
                                                                  management policies. This policy should be
                                                                  developed at ------- --- -- --- - -- -------- - where


                                                            12
    Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                           Statement Audit
                                                                                                          Appendix B

                 Department of Homeland Security - Customs and Border Protection
                             Information Technology Management Letter
                                        September 30, 2005

   NFR #                          Condition                                            Recommendation
                                                                     local system administrators and help desk staff may
                                                                     apply such policies (e.g., changing password age,
                                                                     account lockout, password uniqueness, password
                                                                     length, etc.).

                                                                     For -------- ----- ----------- -----------------------
                                                                     review, justify, and ensure that the level of access is
                                                                     based on strict adherence to least privilege
                                                                     principles where the absolute minimum level
                                                                     necessary is applied. As CBP moves with DHS
                                                                     toward more technology efficient enterprise-wide
                                                                     solutions (e.g., centralized means of managing
                                                                     network assets), the ability to reduce current levels
                                                                     will be enhanced.
                                                                     Continue to review the audit logs daily and
                                                                     maintain documented evidence.
               ----- security audit log reviews were not
CBP-IT-05-10
               evidenced for the majority of FY 2005.                Train backup personnel to perform this task in the
                                                                     event that the primary personnel performing this
                                                                     task are not available.
               ----- administrator staff have not documented         Complete efforts to identify ---------- -- -- - - ------
               ISAs for all entities that connect with the ----- .   connections that are considered “legacy”
               Although there was ---- - -- ---------------------    connections and formally establish ISAs with these
               ------------ - -- -- of all partners that have an     entities.
CBP-IT-05-11
               ISA with CBP, this database failed to capture
               all connections with ------ The majority of           Complete efforts to identify all connections with
               financial institutions connected to ------ have       the ------ and formally establish ISAs with these
               not formally established ISAs.                        entities.
               The “equipment” and “priority of service”             Formally update the alternate processing site
               requirements have not been annually updated.          agreement to accurately reflect the current hardware
CBP-IT-05-12   As a result, the agreement was outdated and did       and support that will be required of the alternate
               not reflect the current operating environment at      processing site vendor in the event of an
               -------                                               emergency.
               No formal process existed to confirm or enforce
               compliance with the ---------------------- -
               ----------------------------- Although field site     Formalize the process to confirm or enforce
               administrators were trained to perform the re-        compliance with the ---------------------- - - --------at
CBP-IT-05-13
               certifications every six months, there was no         the field sites and formally document the
               management oversight to ensure that the field         verification of field site ---------------------- ---
               site administrators were performing the re-
               certifications.
                                                                     Perform a formal review of all personnel who have
               Procedures have not been adequately                   access to the --------- ---------- - - to determine those
               implemented for restricting access to the data        who do not have a formal user access form in place.
               center located in ------ --- Specifically, nineteen   Establish a formally authorized user access form for
CBP-IT-05-14
               out of thirty-two individuals selected did not        each person identified.
               have proper authorizations documented for
               access to the data center.                            Confirm that current personnel with data center
                                                                     access actually need this access to perform their job


                                                           13
    Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                           Statement Audit
                                                                                                                 Appendix B

                  Department of Homeland Security - Customs and Border Protection
                              Information Technology Management Letter
                                         September 30, 2005

   NFR #                               Condition                                               Recommendation
                                                                              functions.

                                                                              Promptly remove physical access rights to the ------
                                                                              facility when an employee is terminated, thus,
                                                                              restricting access to the data center.
                                                                              Develop a formally documented process for
                                                                              granting normal and emergency access for
               ------------------- had access to the production               ------ ---- -- to the-- --- production environment.
CBP-IT-05-15
               environment.                                                   The access request and authorization should include
                                                                              specific justification for their access and be
                                                                              documented and retained.
               Improvements were still needed in CBP’s
               Incident Handling and Response Capability.
               Specifically, issues still exist related to incident
               prevention, response, recovery, and reporting.

               --- ---- - - --------------- ------------ - - ------ -
               - - --- - ---- ------------------------ -- ------ ------
               -- ----------- ------ - - - - --- -------- -------- - --
                                                                              Develop a process to identify the workstations that
               ------ ---------------- -------------- -------- ---- ----
                                                                              have yet to install the ----- ------- -
               ------------ - -------- - - - ------- - - ------------ - - -
               --------
                                                                              Continue to test and implement a standard real-time
                                                                              automated reporting process whereby information
               A formal automated reporting capability does
                                                                              can be generated on all incidents, response, and
CBP-IT-05-16   not exist to report, in a timely manner, on the
                                                                              recovery activities on a regular basis for servers and
               servers and workstations with identified
                                                                              workstations.
               vulnerabilities, the number that have been
               patched, and the number of servers that remain
                                                                              Develop a consistent process to respond to system
               vulnerable.
                                                                              flaw notifications and track reported security
                                                                              incidents.
               There is a process in place for tracking
               incidents. However, the weekly incident report
               process is not consistent and/or complete.
               Incidents were not included on requested
               weekly reports and incident documentation was
               missing. Sample information or evidence was
               not available for system flaw notifications.

                                                                              Perform a formal analysis of the company code
                                                                              setting to determine if it should be set to
               ------was not configured to indicate a company
CBP-IT-05-17                                                                  “productive.” This will prevent users with "mass
               code setting of “productive.”
                                                                              deletion/change" access the ability to accidentally
                                                                              or purposely delete transactional data.
                                                                              Ensure that the assignment of sensitive functions
                                                                              and high-risk combinations of functions to non-
               An excessive number of users had access to
                                                                              supervisory users is based on a documented
CBP-IT-05-18   sensitive ------- unctions and high-risk
                                                                              business need and approved by a supervisory
               combinations of functions.
                                                                              official. Exceptions from the guidance provided in
                                                                              the memorandum should be formally approved and


                                                                   14
    Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                           Statement Audit
                                                                                                        Appendix B

                 Department of Homeland Security - Customs and Border Protection
                             Information Technology Management Letter
                                        September 30, 2005

   NFR #                          Condition                                          Recommendation
                                                                   documented.
                                                                   Determine whether the potential matches are actual
                                                                   matches. Delete the accounts of any confirmed
                                                                   terminated employees.
               A number of separated employees’ names
CBP-IT-05-19                                                       Continue to use the payroll feed to determine if a
               appeared on the ----- active user access listing.
                                                                   ----- user has terminated employment.

                                                                   Disable user accounts of separated employees and
                                                                   contractors as stated in CBP and NIST guidance.
               No process existed to formally document test
               plans, test cases, and test results for -----       Formally document test plans, test cases, and test
               security and configuration changes.                 results for all - --- changes.
CBP-IT-05-20
               The ----- Change Control Board was not              Formally document business and customer impact
               performing formal business and customer             analyses for ------change requests.
               impact analyses for ------change requests.
               Logging of critical tables within ----- has not
               been activated.                                     Perform a formally documented assessment of the
                                                                   tables that should be logged by ------
CBP-IT-05-21   A formal analysis of the tables that should be
               logged in the-- ---- environment has not been       Complete the implementation of table logging
               performed, solely relying on recommendations        within ------
               of a previous audit.
               A certification and accreditation package for all
               components of the ------ LAN has not been
               completed. Specifically, a security control         Complete a security control assessment for all ------
CBP-IT-05-22   assessment was not conducted for the ------         LAN components and complete a risk assessment
               LAN as a whole within the last year. Also, a        for all -------LAN components.
               formal risk assessment was not conducted for
               all ------ LAN components.
                                                                   Using federal guidelines outlining what constitutes
                                                                   a major application, consider reviewing the
                                                                   sensitivity of applications classified as part of-------
                                                                   administrative systems separately to determine
               NIST 800-26 assessments for the seven               which applications warrant individual C&As as
               business areas within the seven Administrative      major applications, and which applications should
               Applications have not been completed. No            remain as part of the current Administrative C&A
               efforts have been made to evaluate the need for     process. Based on results of the sensitivity review,
               a separate C&A for the applications remaining       perform separate C&As, where appropriate.
CBP-IT-05-23
               in the seven business process areas defined in
               the Administrative Applications C&A. Also,          In accepting risks associated with ----- , consider
               additional improvements in consolidated             establishing a relationship of identified risks to
               guidance were necessary to address the issue of     defined security requirements in ----- . This will
               linking risks/threats to requirements.              assist in understanding what risks are mitigated by
                                                                   existing controls and what residual risks remain that
                                                                   management is willing to accept.

                                                                   Given that the ------ deployment may not be


                                                         15
    Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                           Statement Audit
                                                                                                               Appendix B

                 Department of Homeland Security - Customs and Border Protection
                             Information Technology Management Letter
                                        September 30, 2005

   NFR #                          Condition                                             Recommendation
                                                                   completed by the end of the current -----
                                                                   certification period, incorporate a risk-based
                                                                   approach for any re-certification efforts performed,
                                                                   where threats identified are tied to security
                                                                   requirements and mitigating controls.

                                                                   Consider development of definitive guidance for
                                                                   risk assessments and security plan criteria. These
                                                                   criteria should be applied to tie identified risks and
                                                                   threats to security requirements and controls that
                                                                   mitigate risks to acceptable levels. This will allow
                                                                   for the adequate tracking and evaluation of risks
                                                                   and requirements throughout a system’s lifecycle.
                                                                   Therefore, management should be able to
                                                                   definitively recognize what acceptable risks remain.
               A centralized listing of separated contract         Develop a formal centralized process for tracking
               personnel was not maintained. The only              the termination of contract personnel.
               method employed to track terminated
               contractors was the use of a report of users that   Deactivate all systems access for terminated
               had their mainframe account deleted. This list      contractors immediately upon separation.
CBP-IT-05-24
               was not representative of all terminated
               contractors since terminated contract personnel     Periodically distribute a listing of terminated
               might not have had mainframe access or their        contract personnel to information system
               access might not have been removed after their      administrators so they remove user access and
               termination.                                        periodically assess contractor access to systems.
                                                                   Modify the setting on the ------- --------- ---- ---
               The mainframe disconnected idle sessions after      -------------------- ----------- - ----- - to disconnect idle
               30 minutes of inactivity rather than the            sessions as specified by agency policy or ensure the
               prescribed 20 minutes of inactivity noted in the    policy is accurate. (Note: ------------- - ---------------
CBP-IT-05-25
               U.S. Customs and Border Protection,                 -- - ------ - - -- -- - ------------ -- -- - - ----- - ------ ----
               Information Systems Security Policies and           -- - - ------ ----------------- - - --- - --- ----------- -- --- --
               Procedures Handbook.                                -- - ----- ------- --- ---- ------- - ---- - - --- ---- -----
                                                                   ------- ---- ------- ----- ----
               ----- did not have an automated mechanism to
               detect and deactivate users that had not logged     Continue to review and deactivate inactive accounts
               on for 90 days. Procedures to perform a             on a monthly basis.
CBP-IT-05-26   monthly review for inactive accounts in July
               2005 were implemented. However, for                 Implement an automated mechanism to detect and
               majority of FY 2005, this procedure was not in      deactivate inactive accounts.
               place.
               The formal process to grant VPN access using
               an authorization form was recently
               implemented. However, VPN access                    Continue to use the official authorization form for
CBP-IT-05-27   authorization forms were not available for the      new VPN users. Re-certify all VPN employee
               majority of employees selected. Also, VPN           accounts on a periodic basis and document results.
               employee accounts were not periodically re-
               certified.
               Action has not been taken to address the prior-     Re-certify users with access - ------- ---- ------------
CBP-IT-05-28
               year issue that users with access to-- -----        and document the evidence of the re-certification.


                                                         16
    Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                           Statement Audit
                                                                                                                    Appendix B

                 Department of Homeland Security - Customs and Border Protection
                             Information Technology Management Letter
                                        September 30, 2005

   NFR #                             Condition                                                 Recommendation
               ------------------ --------- --- ----- ----- may be
               excessive.
               In FY 2004, issues with access to ----- - -- -----
               -- --- - ------- ------- -- -- ------- Some profiles
               with access to modify the ------------------ - -
               - - ------- -- represented a segregation of duties
                                                                           Document that access to the -------- ------- - --------
               conflict.
                                                                            - -- ---(or equivalent) is properly segregated. This
CBP-IT-05-29                                                               includes a review -- --- - - - ---- - --- - - - - -- - access
               In FY 2005, --------was replaced by --- --
                                                                           to determine if the current granted access is
               KPMG attempted to determine whether the
                                                                           appropriate.
               same issue existed in ------ Information
               regarding whether --- -- -- ---- ---- - --- - - - - -- --
               (or equivalent) were appropriately segregated
               could not be provided.
               Action has not been taken to address the prior-
                                                                           Re-certify users with access to - - ------ -----------
               year finding that the number of users with
CBP-IT-05-30                                                               Recovery, and Backup datasets. Document the
               access to--------------------- , Recovery, and
                                                                           evidence of the re-certification.
               Backup datasets may be excessive.
               As part of the Common Local Area Network
               (LAN) Operating Environment (CLOE) type
               accreditation to perform formal risk
               assessments, ---- LANs dispersed across many
               field sites were not to be visited. As a result,
               management asserted that they were requiring
                                                                           Continue to develop a formal process to ensure that
               each field site on the ‘non-recommended’
CBP-IT-05-31                                                               all non-recommended field sites submit a NIST
               listing to submit a formal NIST 800-26
                                                                           800-26 LAN self-assessment in a timely manner.
               assessment for their LAN. Based on this, a
               sample of 15 field sites were selected from the
               non-recommended field site listing and we
               requested evidence of the NIST 800-26 review
               of their LAN. In a sample of 15 field sites,
               three site assessments were not provided.




                                                                17
    Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                           Statement Audit
                                                                                    Appendix C

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2005




                                       Appendix C

 Status of Prior Year Notices of Findings and Recommendations
                      And Comparison To
    Current Year Notices of Findings and Recommendations




                                              18
Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                       Statement Audit
                                                                                                   Appendix C

                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2005



                   Status of Prior Year Notices of Findings and Recommendations
                                        And Comparison To
                      Current Year Notices of Findings and Recommendations



        Ref                                    Condition                                       Status

                         Inconsistent ----------- ------ -------                   Issue noted in FY 2005. See
   CBP-IT-04-01          ----- ----------- to include excessive access to          NFRs CBP-IT-05-02 and CBP-
                         high-level functions                                      IT-05-03.

                         Inconsistent application certification and
                         accreditation for all applications in the seven           Issue noted in FY 2005. See
   CBP-IT-04-02
                         business process areas defined as Administrative          NFR CBP-IT-05-23.
                         Applications

                         Continuity of critical ---------- -------
                                                                                   This condition has been
   CBP-IT-04-03          operational functions is in question at CBP
                                                                                   corrected.
                         alternate processing site

                         Excessive assignment of ----- sensitive                   Issue noted in FY 2005. See
   CBP-IT-04-04
                         functions and high-risk combinations                      NFR CBP-IT-05-18.

                         Controls in ------ can be overridden without              Issue noted in FY 2005. See
   CBP-IT-04-05
                         supervisory approval                                      NFR CBP-IT-05-04.

                         Excessive access to ------ ---------------- - ------ --   This condition has been
   CBP-IT-04-06
                         -- --------------- ---- --- -----                         corrected.

                         Inconsistent field site security program                  Issue noted in FY 2005. See
   CBP-IT-04-07
                         management                                                NFR CBP-IT-05-31.

                         Weaknesses identified in system logical access            Issue noted in FY 2005. See
   CBP-IT-04-08
                         controls over network assets                              NFR CBP-IT-05-09.

                                                                                   Issue noted in FY 2005. See
   CBP-IT-04-09          Excessive access to ----- - vendor/bank tables
                                                                                   NFR CBP-IT-05-29.

                         Incomplete interconnection security agreements            Issue noted in FY 2005. See
   CBP-IT-04-10
                         (ISAs)                                                    NFR CBP-IT-05-11.

                         Inconsistent and incomplete ----------------------        This condition has been
   CBP-IT-04-11
                         risk assessment                                           corrected.

                         Weaknesses identified in CBP’s on-line                    Issue noted in FY 2005. See
   CBP-IT-04-12
                         Transaction Processing System Security ---------          NFR CBP-IT-05-28.


                                                    19
Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                       Statement Audit
                                                                                             Appendix C

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2005

        Ref                                  Condition                                   Status

                         Weaknesses in----------------- ------ Segregation   Issue noted in FY 2005. See
   CBP-IT-04-13
                         of Duties                                           NFR CBP-IT-05-01.

                         Weaknesses exist in CBP’s Incident Response
                         Capability, specifically related to Detection and   Issue noted in FY 2005. See
   CBP-IT-04-14
                         Incident Initiation; Response and Recovery; and     NFR CBP-IT-05-16.
                         Incident Server Patch Management Reporting.

                         Inconsistent review of - ------ ----- -------       This condition has been
   CBP-IT-04-15
                         logging documentation                               corrected.

                         ----- Materials Management access control
                                                                             Issue noted in FY 2005. See
   CBP-IT-04-16          weakness regarding inconsistently documented
                                                                             NFR CBP-IT-05-05.
                         authorizations

                         ----- General Controls Environment for
                         Materials Management Module: System access,         Issue noted in FY 2005. See
   CBP-IT-04-17
                         user account management, and configuration          NFR CBP-IT-05-09.
                         weaknesses identified

                         Inconsistent use of least privilege principles
                                                                             Issue noted in FY 2005. See
   CBP-IT-04-18          regarding Mainframe User Groups’ access to
                                                                             NFR CBP-IT-05-30.
                         sensitive datasets/utilities




                                                   20
Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                       Statement Audit
                                                                                    Appendix D

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2005




                                       Appendix D

   Management Response to Draft CBP IT Management Letter




                                              21
Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                       Statement Audit
                                                                                    Appendix D

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2005




                                              22
Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                       Statement Audit
                                                                                    Appendix D

                              Department of Homeland Security
                          Information Technology Management Letter
                                     September 30, 2005




                                              23
Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                       Statement Audit
                                                                                                        Appendix D

                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2005




                                                                                        Completion               Comme
NFR#               Condition                   Recommendation
                                                                                        Status                   nts
                                              Coordinate with each filed office
                                              that has a segregation of duties
                                              conflict to either (1) correct the
                                              problem by removing the
                                              conflicting roles, or (2) sign a
CBP-IT-   A number of ------ Ids had a                                                      Completed
                                              waiver to accept responsibility for
05-01     segregation of duties conflict.                                                   7/25/05
                                              issues arising from the
                                              segregation of duties conflict.
                                              Continue to prevent new IDs with
                                              a segregation of duties conflict
                                              from being created.
                                              Remove unnecessary privileges
                                              and/or accounts given the
                                              exceptions we noted related to
                                              the authorities/functions granted
                                              to certain-- -----------------
          Three -------- ----- -----          Accesses granted should be
          - - -- -- --- - -- - -------------  based on the least privilege
          --------- ------ - ---------------- concept to the minimum number
          ----------- - - - -- - -----------  of personnel with a defined and
          ---------) to specify security      documented need.
          modes for individual users
          without a justified business        As an alternate means of
          need.                               providing availability to functions
                                              not used on a regular basis,
CBP-IT-                                                                                     Completed
          Two --------- -- ------------- ---- continue implementation of a
05-02                                                                                       8/1/05
          with ------------------- had full   - ------------ ------ ---- --- --- -- ---- --
          security administration             --------) for use by authorized
          privileges, which violated          individuals during pre-
          separation of duties                determined circumstances.
          principles.                         Establishment of a -----------
                                              ------- would enable the removal
          One SCA account had not             of privileges from individuals who
          been utilized since August 6, do not regularly require such
          2004.                               access. --- - ---------- --- are
                                              controlled through the use of a
                                              hardcopy log, secure storage of
                                              passwords, auditing of all ---------
                                              --------activities, and suspension
                                              after each use.




                                                       24
 Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                        Statement Audit
                                                                                                     Appendix D

                                  Department of Homeland Security
                              Information Technology Management Letter
                                         September 30, 2005

          After the reorganization of the
          Office of Information
          Technology (OIT), security
          administration functions at the
                                             Ensure that security
          ------- including mainframe
                                             administration functions remain
          security, network securities,
                                             independent of operations. In
CBP-IT-   and incident response, were                                        CBP did not
                                             order to maintain independence,
05-03     not independent of the                                             concur
                                             the security administration
          operations functions. Rather,
                                             function should not report to
          the Security Operations
                                             operations management.
          Center reported to
          Technology Operations,
          which was not an
          independent security function.
                                                Develop a process to mitigate
                                                the systemic -------weakness that
          Due to the design of -------          certain controls can be
          certain controls could be             overridden without supervisory
          overridden without                    approval. Considering the
          supervisory approval.                 number of years necessary to
          Management plans to                   fully replace -------functionality
          implement functionality in the with ------- this process should be          Target
CBP-IT-
          -------------------------------       designed in a manner to ensure        completion
05-04
          -------------- - --------- to prevent supervisory review of ------          date 7/31/08
          the override capability. KPMG overrides while maintaining a
          noted that although ------ will minimal burden on management.
          eventually replace-------------- CBP should ensure that the new
          would not be implemented in ------ system has the appropriate
          FY 2005.                              requirements for such controls
                                                and that these controls are
                                                applied prior to implementation.
                                                Formally establish a process for
                                                granting ------ access to sensitive
                                                technical team roles (e.g. basis
                                                and security team members) and
                                                consistently apply these
          Formal procedures for
                                                processes. The procedures
          granting access to sensitive
CBP-IT-                                         should include requirements for       Completed
          ------ technical team member
05-05                                           documenting the authorization         12/1/05
          roles have not been
                                                request and include the exact
          developed.
                                                roles that should be granted.
                                                Additionally, the procedures
                                                should require a periodic
                                                documented recertification of the
                                                user roles within ------




                                                     25
 Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                        Statement Audit
                                                                                            Appendix D

                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2005

          The --------- contingency plan
          has not been updated with
          the results of the FY 2004
          continuity of operations plan
          (COOP) tests. Additionally,
          the COP has not undergone
                                           Update the --------- COOP with
          the annual re-evaluation as
                                           the most recent test results.
          required. Also,
                                           Additionally, re-evaluate the
          implementation of the new
CBP-IT-                                    COOP for overall contingency      Completed
          financial management system
05-06                                      planning procedures on an         12/29/05
          changed the mainframe
                                           annual basis, especially in the
          environment to a client-server
                                           event of a major system change
          based ------ environment.
                                           or upgrade, such as-------
          However, the plan has not
          been updated and, therefore,
          might contain outdated and
          improper contingency
          procedures for information
          systems and data.
                                           Consistently apply the
          The requirement for initial      requirements for initial security
          security awareness training      awareness training for all        Target
CBP-IT-
          for employees and                employees and contractors upon completion
05-08
          contractors was not              initially establishing            date 8/31/06
          consistently applied.            LAN/mainframe accounts to
                                           information systems.




                                                  26
 Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                        Statement Audit
                                                                                                              Appendix D

                                  Department of Homeland Security
                              Information Technology Management Letter
                                         September 30, 2005

                                               Coordinate with DHS in
                                               developing enterprise-wide
                                               solutions for improving network                                  Two years ago
                                               and host-based system                                            CBP began an
                                               configuration design(s) to reduce                                effort to upgrade
                                               the risks of compromise.                                         our Novell Netware
                                                                                                                infrastructure from
                                               Consider use of system                                           version 5.0 to
                                               administrator-level security                                     version 6.5 in order
                                               management monitoring tools to                                   to address the
                                               detect and correct security                                      password
                                               deficiencies in preventing                                       recommendation
                                               possible intrusions. Use of such                                 and gain other
                                               tools should include a planned                                   improvements.
                                               "prioritized" schedule for                                       More recently,
                                               checking all servers.                                            CBP has initiated a
                                                                                                                project to convert
                                               Proceed with the implementation                                  to -------- -------------
                                               of ---------------- ------------ --------                        -----------------
                                               ------ - ------- ------ ---------- ----------                    --- ------- -- - -- - in
                                               --------------- ---                                              order to support
                                                                                                                DHS enterprise
                                               Provide and approve more                                         standards for
          Improvements were still              robust standards for -------- ----                               network operating
          needed in security controls          ---------------- -------------- -- for a                         systems and
                                                                                               Target
CBP-IT-   affecting --- - ------ -----------   standard and sustainable                                         desktop
                                                                                               completion
05-09     ------ management and staff's        baseline set of system                                           applications. This
                                                                                               date 3/31/07
          system access to applications        management security controls.                                    project will allow
          and data.                                                                                             CBP to enforce
                                               Consider development of a                                        strong passwords
                                               compliance-level policy that                                     incrementally as
                                               provides for adherence to                                        ------ --------- - --
                                               agency password management                                       ----- - - ---- ----
                                               policies. This policy should be                                  ----- ------ is
                                               developed at ---------------                                     deployed to
                                               ------------------- where local                                  individual sites.
                                               system administrators and help                                   Discontinuing the
                                               desk staff may apply such                                        Novell upgrade
                                               policies (e.g. changing password                                 and putting our
                                               age, account lockout, password                                   efforts into the
                                               uniqueness, password length,                                     ------ ---------------
                                               etc.).                                                           ------- Active
                                                                                                                Directory
                                               For --------------------- -------- ----                          deployment will
                                               ----------------- ---, review, justify,                          allow CBP to
                                               and ensure that the level of                                     comply with both
                                               access is based on strict                                        the password
                                               adherence to least privilege                                     recommendation
                                               principles where the absolute                                    and DHS
                                               minimum level necessary is                                       standards sooner.
                                               applied. As CBP moves with
                                               DHS toward more
                                                         27
 Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                        Statement Audit
                                                                                              Appendix D

                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2005

                                          technologically efficient
                                          enterprise-wide solutions (e.g.
                                          centralized means of managing
                                          network assets), the ability to
                                          reduce current levels will be
                                          enhanced.




                                          Continue to review the audit logs
                                          daily and maintain documented
                                          evidence.
          ------ security audit log
CBP-IT-                                                                         Completed
          reviews were not evidenced
05-10                                     Complete efforts to identify all      5/31/05
          for the majority of FY 2005.
                                          connections with the ------ and
                                          formally establish ISAs with
                                          these entities.
          ------ administrator staff has  Complete efforts to identify ----
          not documented ISAs for all     ------- ---------- ---- connections
          entities that connect with the  that are considered "legacy"
                                                                                Target
CBP-IT-   ------- Although there was a    connections and formally
                                                                                completion
05-11     ---- - -----------------------  establish ISAs with these
                                                                                date 6/1/06
          ------ ----------- ----- of all entities.
          partners that have an ISA
          with CBP, this database failed Complete efforts to identify all
                                                  28
 Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                        Statement Audit
                                                                                                        Appendix D

                                    Department of Homeland Security
                                Information Technology Management Letter
                                           September 30, 2005

          to capture all connections              connections with the -------and
          with ------- The majority of            formally establish ISAs with
          financial institutions                  these entities.
          connected to -------have not
          formally established ISAs.



          The "equipment" and "priority           Formally update the alternate
          of service" requirements have           processing site agreement to
          not been annually updated.              accurately reflect the current    Target
CBP-IT-
          As a result, the agreement              hardware and support that will be completion
05-12
          was outdated and did not                required of the alternate         date 3/31/06
          reflect the current operating           processing site vendor in the
          environment at -------                  event of an emergency.
          Nor formal process exists to
          confirm or enforce
          compliance with the ------
          ----------------- -------------------
                                                  Formalize the process to confirm
          ------------ . Although field site
                                                  or enforce compliance with the
          administrators were trained to
CBP-IT-                                           --------- -------------------- - - --- at Completed
          perform the recertifications
05-13                                             the field sites and formally              9/12/05
          every six months, there was
                                                  document the verification of the
          no management oversight to
                                                  field site ------------ ---------- ---.
          ensure that the field site
          administrators were
          performing the
          recertifications.
                                                  Perform a formal review of all
                                                  personnel who have access to
                                                  the ------------- ---------- - to
                                                  determine those who do not
                                                  have a formal user access form
          Procedures have not been                in place. Establish a formally
          adequately implemented for              authorized user access form for
          restricting access to the data          each person identified.
          center located in ---------.                                              Target
CBP-IT-
          Specifically, nineteen out of           Confirm that current personnel    completion
05-14
          thirty-two individuals selected         with data center access actually date 3/31/07
          did not have proper                     need this access to perform their
          authorizations documented               job functions.
          for access to the data center.
                                                  Promptly remove physical
                                                  access rights to the ------ facility
                                                  when an employee is terminated,
                                                  thus restricting access to the
                                                  data center.




                                                          29
 Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                        Statement Audit
                                                                                                      Appendix D

                                      Department of Homeland Security
                                  Information Technology Management Letter
                                             September 30, 2005

                                                     Develop a formally documented
                                                     process for granting normal and
                                                     emergency access for
          --------------------- had access           -------------- to the ------
CBP-IT-                                                                                 Completed
          to the production                          production environment. The
05-15                                                                                   8/1/05
          environment.                               access request and authorization
                                                     should include specific
                                                     justification for their access and
                                                     be documented and retained.
          Improvements were still
          needed in CBP's Incident
          Handling and Response
          Capability. Specifically, issues
          still exist related to incident
          prevention, response,
          recovery, and reporting.

          -------------------------- -------- ----
          ------------ - ---------- - ----------
          --------------------------------- ----
          --------------- - -------
                                                     Develop a process to identify the
          ---------------------------------------
                                                     workstations that have yet to
          -------------------------- - - ---- --
                                                     install the ----------------
          ------------------ --------- --------
          ----------------------------------
                                           Continue to test and implement a
          -----------------
                                           standard real-time automated
                                           reporting process whereby
          A formal automated reporting                                                   Target
                                           information can be generated on
CBP-IT-   capability does not exist to                                                   completion
                                           all incidents, response, and
05-16     report, in a timely manner, on                                                 date to be
                                           recovery activities on a regular
          the servers and workstations                                                   determined
                                           basis for servers and
          with identified vulnerabilities,
                                           workstations.
          the number that have been
          patched, and the number of
                                           Develop a consistent process to
          servers that remain
                                           respond to system flaw
          vulnerable.
                                           notifications and track reported
                                           security incidents.
          There is a process in place
          for tracking incidents.
          However, the weekly incident
          report process is not
          consistent and/or complete.
          Incidents were not included
          on requested weekly reports
          and incident documentation
          was missing. Sample
          information or evidence was
          not available for system flaw
          notifications.



                                                            30
 Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                        Statement Audit
                                                                                                 Appendix D

                                 Department of Homeland Security
                             Information Technology Management Letter
                                        September 30, 2005

                                         Perform a formal analysis of the
                                         company code setting to
                                         determine if it should be set to
          ------ was not configured to   "productive." This will prevent
CBP-IT-                                                                           Completed
          indicate a company code        users with "mass
05-17                                                                             10/31/05
          setting of "productive."       deletion/change" access the
                                         ability to accidentally or
                                         purposely delete transactional
                                         data.
                                         Ensure that the assignment of
                                         sensitive functions and high-risk
                                         combinations of functions to non-
          An excessive number of         supervisory users is based on a
                                                                                  Target
CBP-IT-   users had access to sensitive documented business need and
                                                                                  completion
05-18     ------ functions and high-risk approved by a supervisory
                                                                                  date 3/31/06
          combinations of functions.     official. Exceptions from the
                                         guidance provided in the
                                         memorandum should be formally
                                         approved and documented.
                                         Determine whether the potential
                                         matches are actual matches.
                                         Delete the accounts of any
                                         confirmed terminated
                                         employees.
          A number of separated
CBP-IT-   employees' names appeared Continue to use the payroll feed              Completed
05-19     on the ------ active user      to determine if a ------ user has        1/24/06
          access listing.                terminated employment.

                                            Disable user accounts of
                                            separated employees and
                                            contractors as stated in CBP and
                                            NIST guidance.
          No process existed to
          formally document test plans,
          test cases, and test results for Formally document test plans,
          ------ security and              test cases, and test results for all
          configuration changes.           ------ changes.
CBP-IT-                                                                           Completed
05-20                                                                             1/24/06
          The ------ Change Control      Formally document business and
          Board was not performing       customer impact analyses for
          formal business and------ omer ------ change requests.
          impact analyses for ------
          change requests.
          Logging of critical tables with
                                            Perform a formally documented
          ------ has not been activated.
                                            assessment of the tables that
CBP-IT-                                     should be logged by ------.           Completed
          A formal analysis of the tables
05-21                                                                             1/25/06
          that should be logged in the
                                          Complete the implementation of
          ------ environment has not
                                          table logging within ------
          been performed, solely
                                                   31
 Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                        Statement Audit
                                                                                          Appendix D

                                 Department of Homeland Security
                             Information Technology Management Letter
                                        September 30, 2005

          relying on recommendations
          of a previous audit.




          A certification and
          accreditation package for all
          components of the------- LAN
          has not been completed.
                                             Complete a security control
          Specifically, a security control
                                             assessment for all ------ LAN  Target
CBP-IT-   assessment was not
                                             components and complete a risk completion
05-22     conducted for the ------ LAN
                                             assessment for all ------ LAN  date 7/1/06
          as a whole within the last
                                             components.
          year. Also, a formal risk
          assessment was not
          conducted for all------- LAN
          components.
                                         Using federal guidelines outlining
                                         what constitutes a major
                                         application, consider reviewing
                                         the sensitivity of applications
                                         classified as part of the ------
                                         administrative systems
                                         separately to determine which
                                         applications warrant individual
          NIST 800-26 assessments for C&As as major applications, and
          the seven business areas       which applications should remain
          with the seven Administrative as part of the current
          Applications have not been     Administrative C&A process.
          completed. No efforts have     Based on results of the
          been made to evaluate the      sensitivity review, perform
          need for a separate C&A for separate C&As, where
CBP-IT-   the applications remaining in appropriate.                         Completed
05-23     the seven business process                                         8/15/05
          areas defined in the           In accepting risks associated
          Administrative Applications    with ------- consider establishing
          C&A. Also, additional          a relationship of identifying risks
          improvements in consolidated to defined security requirements
          guidance were necessary to in ------- This will assist in
          address the issue of linking   understanding what risks are
          risks/threats to requirements. mitigated by existing controls
                                         and what residual risks remain
                                         that management is willing to
                                         accept.

                                             Given that the ------ deployment
                                             may not be completed by the
                                             end of the current ------
                                             certification period, incorporate a
                                                    32
 Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                        Statement Audit
                                                                                                 Appendix D

                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2005

                                           risk-based approach for any
                                           recertification efforts performed,
                                           where threats identified are tied
                                           to security requirements and
                                           mitigating controls.

                                           Consider development of
                                           definitive guidance for risk
                                           assessments and security plan
                                           criteria. These criteria should be
                                           applied to tie identified risks and
                                           threats to security requirements
                                           and controls that mitigate risks to
                                           acceptable levels. This will allow
                                           for the adequate tracking and
                                           evaluation of risks and
                                           requirements throughout a
                                           systems lifecycle. Therefore,
                                           management should be able to
                                           definitely recognize what
                                           acceptable risks remain.




          A centralized listing of         Develop a formal centralized
          separated contract personnel     process for tracking the
          was not maintained. The only     termination of contract
          method employed to track         personnel.
          terminated contractors was
          the use of a report of users     Deactivate all system access for
          that had their mainframe         terminated contractors
                                                                                  Target
CBP-IT-   account deleted. This list was   immediately upon separation.
                                                                                  completion
05-24     not representative of all
                                                                                  date 3/31/07
          terminated contractors since     Periodically distribute a listing of
          terminated contract personnel    terminated contract personnel to
          might not have had               information system
          mainframe access or their        administrators so they remove
          access might not have been       user access and periodically
          removed after their              assess contractor access to
          termination.                     systems.




                                                   33
 Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                        Statement Audit
                                                                                                                  Appendix D

                                     Department of Homeland Security
                                 Information Technology Management Letter
                                            September 30, 2005

                                                   Modify the setting on ---------------
                                                   ---------------------------------- ---
          The mainframe disconnected
                                                   ------ ---------------- to disconnect
          idle sessions after 30 minutes
                                                   idle sessions as specified by
          of inactivity rather that the
                                                   agency policy or ensure the
          prescribed 20 minutes of
CBP-IT-                                            policy is accurate. (Note: -------- Completed
          inactivity noted in the U.S.
05-25                                              ---------------- -------------------------- 9/29/05
          Customs and Border
                                                   ----------------- ----- ---- ------- --
          Protection Information
                                                   ------ --- ----- - - ----- --------------------
          Systems Security Policies
                                                   ----------------- ------- ----- ----------
          and Procedures Handbook.
                                                   --------------- -- ----------- ----- - -------
                                                   ------------------ -------------- ----------
          ------ did not have an
          automated mechanism to
                                                   Continue to review and
          detect and deactivate users
                                                   deactivate inactive accounts on a
          that had not logged on for 90
                                                   monthly basis.                                  Target
CBP-IT-   days. Procedures to perform
                                                                                                   completion
05-26     a monthly review for inactive
                                                   Implement an automated                          date 5/31/06
          accounts in July 2005 were
                                                   mechanism to detect and
          implemented. However, for
                                                   deactivate inactive accounts.
          the majority of FY 2005, this
          procedure was not in place.
          The formal process to grant
          VPN access using an
          authorization form was
          recently implemented.                    Continue to use the official
                                                                                                   Target
          However, VPN access                      authorization form for new VPN
CBP-IT-                                                                                            completion
          authorization forms were not users. Recertify all VPN
05-27                                                                                              date to be
          available for the majority of            employee accounts on a periodic
                                                                                                   determined
          employees selected. Also,                basis and document results.
          VPN employee accounts
          were not periodically
          recertified.
          Action has not yet been taken
          to address the prior-year                Recertify users with access -
CBP-IT-   issue that users with access ----------------- ------ and document Completed
05-28     to ------------------------- ----------- the evidence of the                             11/1/05
          ------------------- may be               recertification.
          excessive.
          In FY 2004, issues with
          access to ------------------- ---
          ------------- - were reported.           Document that access to the
          Some profiles with access to ---------------------------------- --- (or
          modify the ------------------- ---- equivalent) is properly
CBP-IT-   ------------- - represented a            segregated. This includes a                     Completed
05-29     segregation of duties conflict. review of ---- -------- ------- -- ------- 8/30/05
                                                   access to determine if the
          In FY 2005, ------- was                  current granted access is
          replaced by ------ KPMG                  appropriate.
          attempted to determine
          whether the same issue

                                                           34
 Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                        Statement Audit
                                                                                                   Appendix D

                                      Department of Homeland Security
                                  Information Technology Management Letter
                                             September 30, 2005

          existed in ------ Information
          regarding whether-------
          ----------- ----- ---------- --- (or
          equivalent) were
          appropriately segregated
          could not be provided.




          Action has not been taken to
          address the prior-year finding         Recertify users with access to
CBP-IT-   that that number of users with         ----------------------- Recovery, and Completed
05-30     access to --- ------------------ ,     Backup datasets. Document the 8/11/05
          Recovery, and Backup                   evidence of the recertification.
          datasets may be excessive.
          As part of the Common Local
          Area Network (LAN)
          Operating Environment
          (CLOE) type accreditation to
          perform formal risk
          assessment, ----- LANs
          dispersed across many field
          sites were not to be visited.
          As a result, management
          asserted that they were                Continue to develop a formal
          requiring each field site on the       process to ensure that all non-
CBP-IT-                                                                             Completed
          "non-recommended" listing to           recommended field sites submit
05-31                                                                               9/9/05
          submit a formal NIST 800-26            a NIST 800-26 LAN self-
          assessment for their LAN.              assessment in a timely manner.
          Based on this, a sample of 15
          field sites was selected from
          the non-recommended field
          site listing and we requested
          evidence of the NIST 800-26
          review of their LAN. In a
          sample of 15 field sites, three
          site assessments were not
          provided.




                                                        35
 Information Technology Management Letter for the FY 2005 Customs and Border Protection Financial
                                        Statement Audit
                  Report Distribution

                  Department of Homeland Security

                  Secretary
                  Deputy Secretary
                  General Counsel
                  Chief of Staff
                  Executive Secretariat
                  Under Secretary, Management
                  Commissioner, CBP
                  DHS Chief Information Officer
                  DHS Chief Financial Officer
                  Chief Information Officer, CBP
                  Assistant Secretary, DHS Public Affairs
                  Assistant Secretary, DHS Policy
                  DHS Audit Liaison
                  Chief Information Officer Audit Liaison
                  CBP Audit Liaison

                  Office of Management and Budget

                  Chief, Homeland Security Branch
                  DHS OIG Budget Examiner

                  Congress

                  Congressional Oversight and Appropriations Committees as Appropriate




Information Technology Management Letter for the FY 2005 Customs and Border Protection
                             Financial Statement Audit
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
